      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Office of Audit Services, Region IX
                                                                        90 – 7th Street, Suite 3-650
                                                                        San Francisco, CA 94103




TO:           Francis S. Collins, M.D., Ph.D.
              Director
              National Institutes of Health


FROM:         Lori A. Ahlstrand
              Regional Inspector General for Audit Services, Region IX


SUBJECT:      Claremont McKenna College’s Costs Claimed Under the Recovery Act for
              National Institutes of Health Grant 1R15GM088748-01 Were Allowable
              (A-09-11-01008)


The attached final report provides the results of our review of costs that Claremont McKenna
College claimed under the American Recovery and Reinvestment Act for National Institutes of
Health (NIH) grant 1R15GM088748-01. NIH requested that we conduct this audit.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(415) 437-8360, or your staff may contact Danuta Biernat, Audit Manager, Region IX, at
(323) 261-7218, extension 701, or through email at Danuta.Biernat@oig.hhs.gov. Please refer to
report number A-09-11-01008 in all correspondence.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103
February 14, 2012

Report Number: A-09-11-01008

Mr. Gregory Hess
Vice President for Academic Affairs and Dean of the Faculty
Claremont McKenna College, Bauer Center
500 East Ninth Street
Claremont, CA 91711-6400

Dear Mr. Hess:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Claremont McKenna College’s Costs Claimed Under the
Recovery Act for National Institutes of Health Grant 1R15GM088748-01 Were Allowable. We
will forward a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-09-11-01008 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure


HHS Action Official:

Ms. Lorraine M. Trexler, Director
Division of Risk Management & Audit Liaison
OAMP, OALM
National Institutes of Health
6011 Executive Boulevard, Room 549-C
Rockville, MD 20892-7663
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



CLAREMONT MCKENNA COLLEGE’S
  COSTS CLAIMED UNDER THE
      RECOVERY ACT FOR
NATIONAL INSTITUTES OF HEALTH
   GRANT 1R15GM088748-01
      WERE ALLOWABLE




                        Daniel R. Levinson
                         Inspector General

                          February 2012
                          A-09-11-01008
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       INTRODUCTION

BACKGROUND

American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, included measures to modernize the Nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
and protect those in greatest need. Office of Management and Budget memorandum M-09-15,
dated April 3, 2009, states that Federal agencies must take steps, beyond standard practice, to
initiate additional oversight mechanisms to mitigate the unique implementation risks of the
Recovery Act.

In accordance with the Recovery Act, the Office of Inspector General (OIG) provides oversight
of covered funds within the U.S. Department of Health and Human Services (HHS) to prevent
fraud, waste, and abuse. In light of this oversight role, OIG conducts audits to determine
whether HHS grantees have claimed costs in accordance with applicable Federal regulations and
cost principles.

National Institutes of Health Funding Under the Recovery Act

The Recovery Act provided approximately $10.4 billion to the National Institutes of Health
(NIH), including $8.2 billion intended to stimulate the economy through the support and
advancement of scientific research. NIH used these funds to award grants and cooperative
agreements to research entities, including nonprofit and for-profit organizations, universities,
hospitals, governments and their agencies, and occasionally individuals.

Claremont McKenna College

Claremont McKenna College (the College) is a nonprofit educational institution. The College,
located in Claremont, California, is a coeducational liberal arts college with a curricular
emphasis on economics, government, and public affairs. The College is a member of the
Claremont Colleges, a consortium of five undergraduate colleges and two graduate institutions.

Under the Recovery Act, NIH awarded the College an academic research enhancement grant
totaling $191,867 for the period September 1, 2009, through August 31, 2012. The grant was for
research work to prepare self-assembling nanostructures of discrete size (the project). As of
June 30, 2011, the College had claimed $113,006 in Recovery Act costs under the grant,
consisting of salaries and wages of $38,600, equipment costs of $37,394, indirect costs of
$19,647, fringe benefits of $8,843, and supply costs of $8,522. NIH requested that we perform
an audit of the costs claimed.

The College negotiated with the HHS Division of Cost Allocation a fringe benefit and indirect
cost rate agreement that covered the period July 1, 2009, through June 30, 2011. Fringe benefit
and indirect costs were based on a percentage of direct salaries and wages, including vacation,



                                                 1
holiday, sick pay, and other paid absences. The fringe benefit rate did not apply to student
employees or research or teaching assistants.

Federal Requirements for Grantees

Pursuant to 45 CFR § 74.27, the allowability of costs incurred by colleges and universities is
determined in accordance with the provisions of 2 CFR part 220, Cost Principles for Educational
Institutions (formerly the Office of Management and Budget Circular A-21). The cost principles
at 2 CFR part 220, Appendix A, section C.1, state that the cost of a sponsored agreement
includes the allowable direct costs related to the performance of the project and the allocable
portion of the indirect costs of the institution. Section C.4.d.(1) mandates that the institution
receiving a Federal grant take responsibility for ensuring that all costs charged to the agreement
are allowable.

To maximize the transparency and accountability of funds authorized under the Recovery Act
and in accordance with 45 CFR § 74.21(b)(2), recipients agree to maintain records that
adequately identify the source and application of Federal funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Recovery Act costs that the College claimed for
reimbursement were allowable under the terms of the grant and in accordance with applicable
Federal requirements.

Scope

We reviewed $113,006 of costs that the College claimed under NIH grant 1R15GM088748-01
for the period September 1, 2009, through June 30, 2011. We limited our review of the
College’s internal controls to those that were significant to the objective of our audit.

We conducted our audit from August to November 2011 and performed fieldwork at the College
office located in Claremont, California.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    reviewed the terms of the grant award;

   •    reviewed the grant application to obtain an understanding of the scope and objectives of
        the project;




                                                 2
   •   reconciled the quarterly Federal financial expenditure report for the quarter ended
       June 30, 2011, with the College’s accounting records;

   •   reviewed the Single Audit Report covering the periods ended June 30, 2009, and
       June 30, 2010, and related financial statements for the College;

   •   obtained an understanding of the College’s policies, procedures, and practices designed
       to segregate costs (including cost sharing), revenues, and assets by project;

   •   determined that the fringe benefit and indirect cost rates used by the College were
       consistent with the HHS Division of Cost Allocation rate agreement and that the rates
       were properly applied;

   •   reviewed direct cost expenditures for salaries, wages, and supplies by tracing
       judgmentally selected expenditures to supporting documentation, including personnel
       records, time records, time-and-effort reports, accounting records, and invoices; and

   •   reviewed all direct equipment expenditures by tracing the expenditures to supporting
       documentation, including accounting records, invoices, and inventory listings.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our conclusion based on our audit objective.

                                    RESULTS OF AUDIT

The $113,006 of Recovery Act costs that the College claimed for the period September 1, 2009,
through June 30, 2011, was allowable under the terms of the grant and in accordance with
applicable Federal requirements. Consequently, this report has no recommendations.




                                                3
